r
-

No.__ 19-1342.

3n

6u$>reme (£ourt of tf)t Uniteb 6fafe3
LEE MULCAHY, PhD, pro se
Petitioner,
v.
ASPEN PITKIN COUNTY HOUSING AUTHORITY
(“APCHA”)
Respondent.
On Petition for Writ of Certiorari
To The Colorado Supreme Court

PETITION FOR REHEARING

LEE MULCAHY, Ph.D., Pro Se
53 Forge
Aspen, CO 81611
(970)429-8797
leemulcahvphd@gmail.com

RECEIVED
NOV - 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

CERTIFICATE OF PRO SE PETITIONER
I hereby certify that this petition for rehearing is presented in good faith and not for
purposes of delay. Moreover, I certify that on October 30, 2020,1 emailed a copy of this
petition to the people listed below:
Thomas Fenton Smith IH
Attorney for APCHA
Signature:
&$U/ase$

2

TABLE OF CONTENTS

TABLE OF AUTHORITIES

5

ISSUES PRESENTED FOR REVIEW

7

STATEMENT OF THE CASE

7

I. APCHA IMPROPERLY FILES THIS ACTION AND DISREGARDS
EARLY ORDERS OF THE COURT DESIGNED TO APPRISE
DEFENDANTS OF THEIR RIGHTS AND OF CASE PROCEDURES......9
II. APCHA GOES ON TO DISREGARD ALMOST EVERY OTHER
PROCEDURAL COMPONENT OF C.R.C.P. 16.1 AND THE DISTRICT
COURT FAILS TO FOLLOW-UP OR ENFORCE THEM........................ 15
STANDARD OF REVIEW

22

I. APCHA’S DISREGARD FOR STATE COURT PROCEDURAL
REQUIREMENTS DEPRIVED MULCAHY OF HIS DUE PROCESS
RIGHTS AND THE JUDGMENT SHOULD BE VACATED..............

22

A. C.R.C.P. 60(b)(3) Mandates That a Judgment Obtained in Violation
of Due Process Is Void and Must Be Vacated - There Is No Time
Limit for Doing So
23
B. Colorado’s Civil Procedure Rules Contain the Requirements AtIssue Here for a Reason - They Ensure Litigants Have a Full and Fair
Opportunity to Investigate Claims Brought Against Them and Ensures
They Are Advised of Their Rights
25

3

C. APCHA’s and the District Court’s Failure to Abide by Procedural
Requirements Left Mulcahy Uninformed of Case Procedures, Left
Him Waiting for Discovery That Never Occurred, and Violated the
Precise Reasons Those Requirements Exist
29
II. THESE ERRORS IMPACTED MULCAHY’S DUE PROCESS
DEFENSE, HIS ABILITY TO FIND OUT WHY APCHA PREMATURELY
ACCELERATED THE NOV, AND EVEN HIS ABILITY TO DETERMINE
WHICH GUIDELINES GOVERN
33
CONCLUSION

39

4

TABLE OF AUTHORITIES
Cases
Accardi v. Shaugnessy, 347 U.S. 260 (1954).....................
36
Antero Res. Corp. v. Strudley, 2015 CO 26 (Colo. 2015)..
27,31
Aspen Properties Co. v. Preble, 780 P.2d 57 (Colo. 1989)
32
Cortvriendt v. Cortvriendt, 361 P.26.161 (Colo. 1961).....
23
Degen v. United States, 517 U.S. 820 (1996)....................
27
Don J. Best Trust v. Cherry Creek Nat. Bank, 792 P.2d 302 (Colo. App. 1990).. 24,
31
First Nat. Bank ofTelluride v. Fleisher, 2 P.3d 706 (Colo. 2000)
passim
Goodman Associates, LLC v. WP Mountain Properties, LLC, 222 P.3d 310 (Colo.
2010).............................................................................................................
33
Hamilton v. Baah, No. 14-cv-01211-WJM-MJW (D. Colo. Jul. 30, 2015).....
31
In re C.L.S., 252 P.3d 556 (Colo. App. 2011)................................................. 22, 25
Jaxon v. Circle K. Corp., 773 F.2d 1138 (10th Cir. 1985).............................. 13,26
Mason-Jares, Ltd. v. Peterson, 939 P.2d 522, 524 (Colo. App. 1997)............
33
McLeod v. Jewish Guild for the Blind, 864 F.3d 154 (2nd Cir. 2017).............
26
Mulcahy, Lee, et al. v. APCHA, etal, No. 2018CV18 (Pitkin Cnty. Dist. Ct.)
19
Omerv. Shalala, 30 F.3d 1307 (10th Cir. 1994)..............................................
25
Petition R.A.M. v.for the Adoption ofB.G.B., 2014 COA 68 (Colo. App. 2014). 12,
26, 32
See City & Cty. of Denver v. United Air Lines, Inc., 8 P.3d 1206, 1212 (Colo.
2000)...................................................................................................
34, 37
Sender v. Powell, 902 P.2d 947 (Colo. App. 1995)................................
21
Standard Oil Co. v. F.T.C., 475 F.Supp. 1261 (N.D. Ind. 1979)...........
27
Whiteside v. Smith, 67 P.3d 1240 (Colo. 2003)......................................
16
Wilson v. Dep’tofPub. Serv. Regulation, 260 Mont. 167 (Mont. 2016)
27

5

Other Authorities
Jason Auslander, Assistant attorney picked as new judge, The Aspen Times, Sep.
16, 2015, available at https://www. aspentimes.com/news/assistant-attomeypicked-as-new-judge/................................................................................................. 10
Rules
C.R.C.P. 16..............
C.R.C.P. 16.1..........
Fed. R. Civ. P. 60(b)

. 12, 28
passim
25

PETITION FOR REHEARING
Pursuant to Sup. Ct. R. 44.2, Lee Mulcahy respectfully petitions this Court for an order
granting rehearing and vacating the Court’s October 5, 2020, order denying certiorari, and
disposing of this case by granting the petition for certiorari, vacating the judgment, and
remanding to the Aspen Pitkin County district court for further consideration.
As grounds for this petition for rehearing, petitioner states the following:

6

ISSUES PRESENTED FOR REVIEW
Did the District Court err by denying Defendant-Appellant Edward L.
Mulcahy, Jr.’s (“Mulcahy”) C.R.C.P. 60(b) motion to vacate the underlying
judgment for procedural due process violations where Mulcahy was pro se in
District Court; where the judgment severely impacts Mulcahy’s property rights by
ordering him to sell his house and home; where, in obtaining the judgment,
Plaintiff-Appellee Aspen

Pitkin

County

Housing

Authority

(“APCHA”)

disregarded almost every single procedural requirement in state court designed to
ensure fair litigation practices, including improperly electing into C.R.C.P. 16.1 ’s
expedited procedure, failing to serve orders on Mulcahy that would have apprised
him of case management procedures, failing to serve discovery disclosures of any
kind on Mulcahy, and failing to file a certificate of compliance with the court; and,
further compounding these issues, where the District Court itself failed to follow­
up or otherwise ensure procedural requirements were being met before entering
early summary judgment in APCHA’s favor?
STATEMENT OF THE CASE
Mulcahy is an eccentric and outspoken artist in Aspen, Colorado who is an
Eagle Scout; holds a master’s degree in 19th Century French Art and Literature; a
Ph.D. in humanities; and has had his art shown in various galleries around the
7

world, including the Aspen Institute. [CF, p. 294-95 (Mulcahy resume)]. He is
politically active; has frequently voiced his opposition to local government leaders
in public forums, including APCHA; and has stood up and challenged local
government and prominent businesses on various matters, including labor and
employee rights. [CF, p. 109 IT 3, 123 IT 5, 1014 (discussing Mulcahy’s conflicts
with the Aspen Skiing Company, Aspen valley’s largest employer, for distributing
unionization information to fellow employees and the resulting National Labor
Relations Board settlement with the company)]. Needless to say, Mulcahy is well
known in Aspen’s small, approximately 7,250 resident community, and frequently
a target for those government leaders he speaks out against. [See CF, p. 573 IT 3].
The particular issues here stem from Mulcahy’s ownership of property he
received in 2006 from APCHA, the entity responsible for administering the
affordable housing program in Aspen and Pitkin County. In conformance with
requirements for receiving the property, which was initially a vacant lot; Mulcahy,
with the help of his now deceased father, designed and built his own residence on
the property. [CF, p. 123 IT 4, CF, p. 124 IT IT 8-9]. Notably, with his father being
diagnosed with a terminal illness while they were constructing the home, Mulcahy
designed part of the home to allow him to care for his approximately 85" year old
mother instead of placing her in a nursing home. Mulcahy’s mother does, in fact,
8

currently reside with him. [CF, p. 986, 1394 (letter with Mulcahy and his mother,
Sandy, sharing the same address)]. Mulcahy’s home represents an important, last
remaining vestige of his relationship with his father.
In 2015, with Mulcahy having publicly criticized local government
individuals that have authority or influence over APCHA, and with Mulcahy
having failed to respond by a deadline indicated in a Notice of Violation (“NOV”)
containing default-type findings of deed restriction violations - which, notably,
was later found out to be issued almost 30 days prematurely and while Mulcahy
was known to be traveling for his family’s charity work in Kenya - APCHA filed
the underlying action to enforce that NOV and compel Mulcahy to sell his house
and home. [CF, 18 If IT 19-20]. In doing so, however, APCHA disregarded almost
every single safeguard incorporated into Colorado’s civil procedure rules to protect
the rights of litigants. Such actions, and the District Court’s failure to catch them,
deprived Mulcahy of due process and a full and fair opportunity to defend against
APCHA’s claims seeking to deprive Mulcahy of house and home. Mulcahy
discusses these aspects below.
I.

APCHA IMPROPERLY FILES THIS ACTION AND DISREGARDS
EARLY ORDERS OF THE COURT DESIGNED TO APPRISE
DEFENDANTS OF THEIR RIGHTS AND OF CASE PROCEDURES

9

APCHA filed this lawsuit in December 2015 seeking an order from the
District Court forcing Mulcahy to sell his house and home based on his alleged
failure to exhaust administrative remedies. [CF, pp. 1-20, 1404-21 (Complaint and
attached exhibits)]. Specifically, APCHA asserted it was entitled to judgment as a
matter of law because Mulcahy had failed to timely request a hearing with APCHA
in response to a August 25, 2015 NOV alleging default-type deed restriction
violations.1 Accordingly, APCHA asserted Mulcahy had failed to exhaust his
administrative remedies and that the District Court could consider none of
Mulcahy’s defenses. [CF, pp. 16-19, 99 (Complaint and summary judgment
motion)].
The case was assigned to District Court Judge Seldin, who had been
appointed to the bench only a month prior. [Jason Auslander, Assistant attorney
picked as new judge, The Aspen Times, Sep. 16, 2015, available at https://www.
aspentimes.com/news/assistant-attomey-picked-as-new-judge/ (indicating Judge
Seldin began his judgeship November 1, 2015)]. Mulcahy, unable to afford a

1 Notably, the alleged deed restriction violations that gave rise to the NOV
stemmed from an anonymous complaint against Mulcahy conveniently around the
same time period Mulcahy had been publicly criticizing APCHA authorities. [See
CF, p.3 (indicating the inquiry came as a result of a complaint)]. Due to APCHA’s
complete disregard of discovery in this action, that complaint has never been
produced by APCHA.
10

$20,000 retainer at the time, acted pro se in the District Court proceedings through the
rendering of a summary judgment order in APCHA’s favor. [CF, p. 127 paragraph 26].
1. Due to word count, the rest of the brief is omitted but can be found in Exhibit 6.

AFFIDAVIT
STATE OF COLORADO
COUNTY OF PITKIN
Lee Mulcahv. being duly sworn, deposes and states as follows:
I. Lee Mulcahv. state the following:
1. Aspen, Colorado, is a town of 6788 residents. APCHA controls over 3300 "units" in
Pitkin County. Some "units" are 4 bedroom homes. With great power comes great
responsibility to exercise that power justly. The apostle Paul wrote in Ephesians 6:12
“For our struggle is not against flesh and blood, but against the rulers, against the powers
of this dark world....”
2.1 am an Eagle Scout and have volunteered thousands of hours for my community. Our
Sheriff gave me a hug outside our local library and told me he believes that this whole
eviction attempt is a “witch-hunt.” I am grateful for many many things. I am an artist; I am
not an attorney. My paintings are in and have been shown in museums in both Berlin and
Nairobi and galleries all over the world including Aspen, Carbondale, Prague and Beijing.
I served as a Trustee for the Aspen Historical Society for eight years until asked to resign
after I tried to unionize Aspen Skico workers.

11

3. Critically, I lost in a landslide in the last election to the Mayor of Aspen, Steve Skadron,
in a 2 man race. My family gathered over 2000 signatures in front of our courthouse on a
petition delivered to both the local judge and Aspen City Council "for a peaceful resolution
to allow a public hearing on our eviction" in front of city hail and our local grocery store.
The outpouring of love and support from the community signing was overwhelming. The
signatures for a hearing were ignored by local judge “Sneaky” Seldin & the local politicians
except for the Board Chair of the County commissioners, a local rancher, Steve Child.
4. Last week, my family was very grateful for two things: The United States Court of
Appeals in the 10th Circuit sided with us. See Exhibit 1 for brief.
Secondly, the current Board Chair of the Pitkin County commissioners who is up
for re-election stated in a debate “I think APCHA needs to treat people better.... I’m on
Lee Mulcahy’s side. Other people have been treated unfairly.” See Exhibits 2 & 3 or
https://www.aspendailvnews.com/news/countv-commissioner-candidates-make-their-case/
article bdl81888-0f60-lleb-86a2-279e2655f300.html or
https://www.aspentimes.com/news/housing-pandemic-response-divide-Ditkin-coiintv-distri
ct-4-candidates-at-sauirm-night/. Commissioner Child, if re-elected, stated in a letter to
the editor this week:
“There are unanswered questions in the public eye revolving around the timeline when the
notice of violation was sent and received, the apparent favoritism for some and unequal
treatment for others who were violating guidelines during that general time period, and
about what occupations should be counted as employment for APCHA eligibility.
There are two areas of the APCHA rules that I think should be reviewed and changed as
necessary to make them fair and equitable to everyone. A hearing before the APCHA board
should be mandatory and not optional for anyone accused of a major violation of the rules
which could lead to eviction or a large fine, and the sweat equity someone puts into
building or remodeling their own home should be counted as employment.
Lee admits he made a mistake a few years ago by not requesting a hearing to the Notice of
Violation he received. It would be unconscionable for the city to evict Lee and his mother

12

from their home now without holding a hearing regarding this notice, and Lee’s work
hours spent building his own house should be taken into account towards his required
employment in the county.”- Pitkin County commissioner board chair & rancher Steve
Child See Exhibit 4 or
https://www.aspendailynews.com/opinion/time-to-hold-mulcahey-hearing/article_4a4ell7818al-l leb-882c-dbcbae889961.html

5. We worry that local judge “Sneaky” Seldin may be captured by the out of state Chicago
billionaire that owns the Aspen Ski Company. Like any monopoly, Skico does not like to
be criticized. See Mulcahy vs. Skico, Supreme Court case 19-1229 for captured local judge
Seldin’s orders which was denied certiorari.
Society moves forward by acts of peace. After our victory in the 10th circuit, we will
propose a settlement to AlPCHA that involves paying the newly instituted fines (instead of
eviction), performing 3000 community service hours & to be allowed to show compliance
as an artist per APCHA's rules while renting the house/artist studio we built. APCHA has
steadfastly refused to look at my artistic records APCHA requested in an email on October
14, 2015, when my family returned from our clean water philanthropic Christian mission in
Sotik, Kenya - after I missed APCHA's deadline.
According to a recent letter to the editor from APCHA’s former executive director,
APCHA’s investigation started six days before my Father passed and ended September 9,
2020 well before APCHA had decided what to count as artistic records as evidenced by the
APCHA October 14,2015 email provided as Exhibit 6. For letter to the editor, please see
https://www.aspendailvnews.com/opinion/inexplicable-misleading-downright-indefensible/
article 2936faf0-la4e-l Ieb-a27f-9b0c8ee46f63.html
6. This eviction has been controversial and we are grateful for the community’s support.
Recent examples: “I figure we are all tired of hearing about this Mulcahy standoff. I don’t
know the dude, may not even like him if I did, but the man is fighting for his home and his
mom — what kind of feeling are we supposed to take away from that? A man defends his

13

home. Bottom line. And jeez, he defends his Mom next. What else is a guy supposed to
do?” - Janet Mohrman from
https://www.aspendailviiews.com/opinion/openmg-the-door/article b5ed4504-calb-l lea-81
e7-f76475497838.html Another stated, “Where are the adults in Aspen? Having followed
the saga of Lee Mulcahy for the past several years, I have a question for the people of
Aspen. Where are the adults?” - Chris Neuswanger in
https://www.aspendailvnews.com/where-are-the-adults-m-aspen/article ccfa32bb-79bf-505
c-bbb9-fcd61b9ad573.html
7. It is necessary to point out that APCHA’s attorney Thomas Fenton Smith III is highly
controversial, had to resign from the town of Basalt, and was investigated by the Colorado
Supreme Court’s Attorney Regulation Counsel. A simple google search will provide
multiple news stories.
8.1 have told the local judge my willingness to pursue settlement and peace. As recently
admitted by APCHA in the Court of Appeals, neither APCHA nor the judge has provided us
a required case management conference where settlement is to be discussed. I grew up in
Texas and am very grateful to my late Dad for helping me study at both universities in
Texas and in Paris at the Sorbonne, France where liberty is valued more than life. I’m also
grateful to have inherited my parents’ wonderful sense of humor and I try never to lose it
in dealing with government petty tyrants.
Recently court rulings in federal court and local politicians’ support should be a
huge wake up call to local politician turned assistant county attorney turned local Judge
Chris Seldin. As I write, there are protests and riots all over the nation due to injustice. I
marched peacefully in #BLM (Black Lives Matter) five years ago. What our judges must
realize is that you all cannot subjugate, prosecute and humiliate the people you were
appointed to serve without us little people eventually standing tall. Civil disobedience,
after all, is putting oneself in harm’s way to bring attention to a problem and bring change.

14

9. I’ve often wondered why Judge Seldin nor APCHA charged me with contempt.
However, the outcome would not be decided by a judge but by the determination of a jury
of my peers. Recent unexpected losses by the government out West against the Bundy
ranching family in both Oregon and Nevada should be a wake up call to government
overreach.
10. Our Sheriff has classified Aspen as a sanctuary city from federal immigration law.
People often joke with us that if we were illegal aliens, the Sheriff would not be enforcing
our eviction. The English used the law to evict the native Irish from their own homes for
nearly seven centuries. When the Brits started invading Americans’ homes as power often
does, the clock started ticking for the King’s reign in his “colony.”
Our nation’s forefathers revolted. Our Declaration states: “We hold these truths to
be self-evident, that all men are created equal, that they are endowed by their Creator with
certain unalienable Rights, that among these are Life, Liberty and the pursuit of
Happiness.-That to secure these rights, Governments are instituted among Men, deriving
their just powers from the consent of the governed, -That whenever any Form of
Government becomes destructive of these ends, it is the Right of the People to alter or to
abolish it.” We have chosen to resist. Why?
11. This whole eviction is based on “bullshit,” specifically a prematurely issued notice of
violation. APCHA issued the notice of nearly a month prior than its rules allowed. The
first compliance letter went out July 17, 2015 provided. The APCHA guidelines provided
citizens with a 60 day grace period before a notice of violation would be sent and was
indicated on the letter. (60 days would have been until September 15, 2015). As the record
indicates, APCHA issued the notice of violation on August 25, 2015.
12. “At its dark heart, this case wasn’t just about APCHA and its corrupt practices, but
about making an object lesson on anyone who dared to criticize the owner of the company
that owns the company town, billionaire Lester Crown,” Mulcahy’s email said. “In a

15

contract, both sides have to play fair. The city of Aspen failed to play by their own
arbitrary rules throughout and consequently shouldn’t receive the benefit of our family’s
blood, sweat and tears. Sadly, our justice system is in poor shape.”-1 stated here:
https://www.aspentimes.com/trending/colorado-supreme-court-will-not-hear-mulcahy-caseover-aspen-home-ownership/
13.1 do construction Monday - Friday 7:30am- 3:30pm and keep my studio gallery
open by appointment on weekends. I hold a city business license and a member of the
Aspen Chamber. The irony is that a town that brags about its artistic prowess and an
intellectual center (“Athens of America”) while being covertly run by billionaire owner of
Aspen Skiing and General Dynamics Lester Crown. The eviction of an artist as war
profiteer that has a penchant for bribery.
14. Regarding freedom of thought and expression central to artists, free discourse in
the best sense of the Enlightenment is not simply restricted through state sanction of
punishing people but also through social scorn that makes it impossible to have a career or
have your reputation in any kind of working order because you express views

16

(anti-government, anti-APCHA) that deviate from state sanctioned narratives or
orthodoxies - ones that often future generations come to regard as wrong.
f ;$.hope our community can resolve this tense situation through negotiated settlement.
After all, God’s greatest commandments are to love your God and your fellow man.

Edward Lee Mulcahy

MARGARITA M. McDADE

NOTARY PU8UC
STATE OF COLORADO
NOTARY ID #20154003521
My CofflTTHMion Expires January 28,2023

Subscribed and sworn to before this_30th_ day of October, 2020.1 am duly authorized
under the laws of the State of Colorado to administer oaths.

17

Notary Public
My commission expires i/z-s Ll.

Notary Public, State of Colorado, Notary ID.

CONCLUSION

To deprive an individual of his house and home, nonetheless one I built myself,
without a full and fair opportunity to respond to allegations leveled against him is not
justice. It runs completely counter to the basic foundations of our democratic society and
the notion, that at a minimum, when a government wants to intrude on private property
rights, it must do so in a fair way that allows an interested party to investigate asserted
claims and be heard in a meaningful manner before such an intrusion occurs.
Here, not only did APCHA deprive me of the due process at the administrative level
by prematurely issuing a NOV; it then compounded that derivation in state court by
denying me discovery, an opportunity to be apprised my rights and applicable case
procedures, and a fair opportunity to contest the NOV and investigate my defenses. In

18

]

such circumstances the United States Constitution is clear, where a procedural due
process violation occurs any resulting judgment is void and cannot stand. APCHA’s
dereliction of its procedural duties in this case constitutes a clear violation of my
Constitutional due process rights, should not be rewarded, and my family should be given
a full and fair opportunity to defend against APCHA’s claims before my house and home
are stolen or invaded by an out of control government that violates its own laws with
impunity. I love my country; but I will die to defend freedom and liberty.
WHEREFORE, pro se petitioner requests the Court to accept the previously
rejected writ of certiorari or in the alternative, order parties into mediation immediately if
local Aspen Judge Chris Seldin fails to do so.

Respectfully submitted,

Edward Lee Mulcahy 10/30/2020

19

ft* I

UPDATE AND CERTIFICATE STATEMENT
Local judge Chris Seldin has entered a new November 10th, 2020 order authorizing law
enforcement to utilize “forcible entry” provided as Exhibit 7. In his order, he claimed that
“Mulcahy requested the hearing and the “status conference” was scheduled as a hearing.
This is false. Previous court orders Exhibits 8 & 9 indicate otherwise.
As requested, I have sent a $200.00 filing fee pursuant to Rule 38(b). The grounds
are limited to intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously presented. APCHA broke the law and this whole case
rest on a “bullshit” illegal notice of violation. My mentors at church tell us: “Don’t give
up.”

CERTIFICATE OF COMPLIANCE
I hereby certify that this brief complies with the requirements as it contains less than 3000
words. I acknowledge that this brief may be stricken if it fails to comply with any of the
rules.

Edward Lee Mulcahy 12/10/2020

20

Additional material
from this filing is
available in the
Clerk's Office.

